<html>
<title> - RECOMMENDATIONS OF THE COMMISSION TO REVIEW THE EFFECTIVENESS OF THE NATIONAL ENERGY LABORATORIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   RECOMMENDATIONS OF THE COMMISSION
                      TO REVIEW THE EFFECTIVENESS
                  OF THE NATIONAL ENERGY LABORATORIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 18, 2015

                               __________

                           Serial No. 114-51

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              ____________
                              
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE
97-770PDF               WASHINGTON : 2017                   
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  
            
             
             
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           November 18, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative Alan Grayson, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    10
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Mr. TJ Glauthier, Co-Chair, Commission to Review the 
  Effectiveness of the National Energy Laboratories
    Oral Statement...............................................    16
    Written Statement of Mr. TJ Glauthier and Dr. Jared Cohon, 
      Co-Chairs, Commission to Review the Effectiveness of the 
      National Energy Laboratories...............................    20

Dr. Peter Littlewood, Director, Argonne National Laboratory
    Oral Statement...............................................    27
    Written Statement............................................    29
Discussion.......................................................    32

             Appendix I: Answers to Post-Hearing Questions

Mr. TJ Glauthier and Dr. Jared Cohon, Co-Chairs, Commission to 
  Review the Effectiveness of the National Energy Laboratories...    52

Dr. Peter Littlewood, Director, Argonne National Laboratory......    55

            Appendix II: Additional Material for the Record

Response to the Final Report of the Commission to Review the 
  Effectiveness of the National Energy Laboratories..............    58

Recommendations of the Commission to Review the Effectiveness of 
  the National Energy Laboratories (Testimony of Professors 
  Venkatesh Narayanamurti, Laura Diaz Anadon, Gabriel Chan and 
  Dr. Amitai Y. Bin-Nun..........................................   116

Statement submitted by Eddie Bernice Johnson, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   121

 
                   RECOMMENDATIONS OF THE COMMISSION
                      TO REVIEW THE EFFECTIVENESS
                  OF THE NATIONAL ENERGY LABORATORIES

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                  House of Representatives,
                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time.
    Welcome to today's hearing entitled Recommendations of the 
Commission to Review the Effectiveness of the National Energy 
Laboratories. I now recognize myself for five minutes for an 
opening statement. Good morning, and as I said earlier, welcome 
to today's Energy Subcommittee hearing on the Recommendations 
of the Commission to Review the Effectiveness of the National 
Energy Labs. Today we will hear from the Commission's co-chairs 
Mr. TJ--is it Glauthier?
    Mr. Glauthier. Glauthier.
    Chairman Weber. Glauthier. I can do this--and Dr. Jerry 
Cohon as well as Dr. Peter Littlewood--thank you for having a 
simple name, Doctor--Director of Argonne National Laboratory 
regarding the extent to which the DOE lab system is working 
well and where it can improve.
    Like many topics we discuss in the Energy Subcommittee, 
this one requires a thorough understanding of the details. Of 
the DOE's 17 national labs, ten are stewarded by the Office of 
Science for Basic Research, three by the National Nuclear 
Security Administration, or the NNSA, to maintain the nuclear 
weapons stockpile, and four by their respective DOE applied 
energy programs.
    Each of the 17 labs has distinct characteristics and 
capabilities that bring a unique set of challenges when it 
comes to management, oversight, safety and security. For 
example, this summer I along with staff had the opportunity to 
visit the Savannah River National Lab along with some of my 
colleagues on the committee. The Savannah River complex is 
hundreds of square miles and houses critical infrastructure for 
the Nation's nuclear deterrent as well as facilities to support 
research subjects ranging from national security to 
environmental management.
    As the witnesses will observe today, 16 of the 17 national 
labs are government-owned, contractor operated, which requires 
a certain degree of trust between owner and operator for us to 
achieve optimal results. That said, there is one fundamental 
question relevant to every subject we're likely to discuss 
today whether it's collaborative research with the private 
sector, technology transfer, laboratory-directed research and 
development, also known as LDRD, or safety and security. So the 
question is how much discretion should the DOE delegate to 
contractor operators while balancing the need to maintain DOE's 
oversight responsibilities? Ultimately we're debating a risk-
reward concept that is familiar to Congress because we have to 
balance similar concerns when legislating federally sponsored 
research and development.
    On the one hand, providing more discretion to the 
researchers allows them to pursue the most creative ideas 
without encumbrances. But on the other hand, too much 
discretion without effective oversight can lead to waste or 
misuse of taxpayer funds. And as I mentioned before, the 17 
labs are very diverse so the approach for each lab should be 
distinct if we're going to get this right.
    That said, I look forward today to the recommendations of 
this distinguished witness panel as we consider legislative 
options to help the labs reach their full potential. Again, I 
thank the witnesses for their attendance, and I look forward to 
your testimony.
    [The prepared statement of Chairman Weber follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. And with that, I recognize Mr. Alan 
Grayson.
    Mr. Grayson. Thank you, Mr. Chairman, for holding this 
hearing today on a very important topic, our national 
laboratories and how to improve them. I'd also like to thank 
our witnesses for offering their expert recommendations and 
insights.
    The United States invests more than any other nation in 
research and development, yet when you put that investment in 
context as a percentage of our GNP, it becomes much less 
impressive. Our R&D investment is stagnating, while other 
countries are seizing the opportunity to try to out-innovate 
the United States. China is currently on course to overtake the 
United States in actual R&D dollars spent sometime in the next 
decade.
    However, the United States has an incredible innovation 
asset, our national labs. In order to take advantage of them, 
we must try to provide the national labs with the necessary 
resources not only to maintain and grow a vast array of 
facilities and equipment, but also to fund the exploratory 
research that produces results we may never have expected.
    Beyond providing resources, the Commission to Review the 
Effectiveness of the National Energy Laboratories has offered a 
number of substantive recommendations in their report, and 
we're here to talk about them today. This Congress and this 
Administration can act on the Commission's recommendations 
quickly and make meaningful improvements to our network of 
national labs.
    For years the relationship between the Department of Energy 
and the national labs has been a complicated one. The 
Commission has to find the means to try to improve that 
relationship--that was part of your charge--and make it more 
productive and effective. This motivation is apparent in a 
number of your recommendations, and I hope that the Department 
will take each and every one of those to heart.
    Providing laboratories with increased levels of 
independence and freedom is bound to cause some transitional 
issues. But the result could be a more innovative atmosphere 
that provides scientists the freedom to produce groundbreaking 
outcomes.
    The Commission's overall message is clear: The national 
labs are unique and irreplaceable. They must be a high priority 
in our budgetary decisions both now and in the future. I 
certainly will be a strong advocate myself on that point and I 
urge my colleagues to join me in that effort. Thank you again 
to the witnesses for being here today, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Grayson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Grayson. I now recognize the 
Chairman of the Full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. Today we will hear 
recommendations from the Commission to Review the Effectiveness 
of the National Energy Laboratories. The Director of Argonne 
National Lab also will testify about his perspective on how the 
labs could operate more effectively.
    The Committee on Science, Space, and Technology's 
jurisdiction over the country's ``scientific research, 
development, and demonstration'' makes possible American 
innovation and competitiveness. The Department of Energy is the 
largest federal supporter of basic research and sponsors 47 
percent of federal basic research in the physical sciences.
    The Department's science and energy research infrastructure 
at its 17 national labs and facilities are used by over 31,000 
scientific researchers each year. The Commission to Review the 
Effectiveness of the National Labs was established by Congress 
to assess strategic priorities, unique capabilities, size, and 
accomplishments of this research network.
    The Commissioners here today visited national labs, 
interviewed researchers and DOE officials, and compiled a 
detailed report with recommendations of how Congress and the 
DOE can ensure that national labs are able to reach their full 
potential.
    Last month, the Commission released its final report. It 
found that the DOE lab system provides unique, long-term 
research capabilities that could not otherwise be reproduced by 
universities or the private sector. However, the Commission 
also found that the labs spend an excessive amount of time to 
navigate through government red tape created by the Department 
of Energy. Burdensome operating requirements can delay research 
projects and make it more difficult for researchers to pursue 
high-value science.
    Congress has limited resources for research and 
development. We have a responsibility to ensure that taxpayer 
dollars are spent efficiently and effectively. To achieve the 
best return on investment for the American people, we must 
ensure the DOE labs are able to realize their full potential.
    I thank our witnesses for their testimony today, and I look 
forward to a productive discussion about how we can improve our 
national labs. A primary goal of this Committee is to ensure 
that federal research and development is effectively directed. 
As we consider how to best direct the Department of Energy, we 
must focus on policies that enable breakthrough discoveries.
    With improvements in the effectiveness of the national lab 
system, we can keep the best and brightest researchers here in 
the United States to continue to explore new ideas. This allows 
the national labs to provide the foundation for private sector 
development across the energy spectrum, create jobs, and grow 
the American economy.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Chairman. I'll now introduce 
our witnesses. Our first witness today is Mr. TJ Glauthier, Co-
Chair on the Commission to Review the Effectiveness of the 
National Energy Laboratories and President of TJG Energy 
Associates. Welcome. Mr. Glauthier previously served as the 
Associate Director of OMB and Deputy Secretary and COO of the 
DOE under President Bill Clinton. Mr. Glauthier received his 
bachelor's degree in mathematics from Claremont McKenna College 
and his MBA from Harvard Business School.
    Our next witness today is Dr. Jared Cohon, Co-Chair on the 
Commission and President Emeritus and university professor at 
Carnegie Mellon University. Dr. Cohon previously served as 
Chairman of the Nuclear Waste Technical Review Board from 1997 
to 2002. Dr. Cohon received his bachelor's degree in civil 
engineering from the University of Pennsylvania and his Ph.D. 
in civil engineering from MIT.
    And I now recognize the gentleman from Illinois, Mr. 
Lipinski, to recognize our final witness today, Dr. Peter 
Littlewood, Director of the Argonne National Lab. Congressman?
    Mr. Lipinski. Thank you, Mr. Chairman. It's my pleasure to 
introduce Dr. Peter Littlewood, Director of Argonne National 
Laboratory. Dr. Littlewood came to Argonne in 2011 when he was 
appointed Associate Laboratory Director of Argonne's Physical 
Sciences and Engineering Directorate. He was appointed as 
Director last year. He is an internationally respected 
scientist who holds six patents, has published more than 200 
articles, and has given more than 200 invited talks at 
conferences, universities, and laboratories. He is a fellow of 
the Royal Society of London, the Institute of Physics, and the 
American Physical Society.
    Dr. Littlewood holds a bachelor's degree in natural 
sciences and a Ph.D. in physics both from the University of 
Cambridge. I want to welcome Dr. Littlewood today.
    Chairman Weber. Thank you, Mr. Lipinski. In lieu of giving 
separate statements, Mr. Glauthier has elected to give 
testimony on behalf of himself and Dr. Cohon, I understand. So 
I now recognize Mr. Glauthier for ten minutes to present that 
testimony.

                 TESTIMONY OF MR. TJ GLAUTHIER,

                 CO-CHAIR, COMMISSION TO REVIEW

               THE EFFECTIVENESS OF THE NATIONAL

                      ENERGY LABORATORIES

    Mr. Glauthier. Thank you, Mr. Chairman, and Ranking Member 
Greyson, other Members and staff of the Subcommittee and others 
here who are interested in the national laboratories. Dr. Cohon 
and I are happy to be here today to discuss the report of the 
Commission to Review the Effectiveness of the National Energy 
Laboratories. Congress created this Commission in the FY 2014 
Omnibus Appropriations Act. The President's Council of Advisors 
on Science and Technology developed a list of potential 
nominees, and then the Secretary of Energy selected the nine 
Commissioners from that list. The two of us have served as the 
co-chairs of the Commission for almost 18 months, and we're 
privileged to serve with an outstanding group of Commissioners 
with strong backgrounds in the science and technology 
enterprise of the Nation.
    We are pleased that this is a consensus report. We received 
excellent cooperation and support from the Department of 
Energy, all of the relevant Congressional committees, the White 
House, the National Laboratories themselves, and many others.
    During the course of our work, we visited all 17 of the 
national laboratories, heard from 85 witnesses in monthly 
public hearings in the field and here in Washington and 
reviewed over 50 previous reports on this topic from the past 4 
decades. We'll come back to that point in a little bit, 50 
reports.
    We have titled our report Securing America's Future: 
Realizing the Potential of the National Energy Laboratories. 
Our overall finding is that the national laboratory system is a 
unique resource that brings great value to the country in the 
four mission areas of the Department of Energy: nuclear 
security, basic science R&D, energy technology R&D, and 
environmental management.
    For example, the national labs have four of the world's 
fastest supercomputers which are helping the Nation extend the 
lifetimes and safety of our nuclear warheads without nuclear 
testing. In basic science, their world-class particle 
accelerators, light sources, and other user facilities host 
over 30,000 researchers every year from our universities and 
industry partners. And in energy technology R&D, the labs have 
played an important role in helping to develop the innovations 
that have led to the Nation's shale gas revolution and surge in 
wind and solar energy.
    However, our national lab system is not realizing its full 
potential. Our Commission believes that can be changed. We 
provide 36 recommendations that we believe, if implemented, 
will help the labs to become more efficient and effective and 
have even greater impact, thereby helping secure America's 
future in the four mission areas of the Department.
    We'd like to highlight a few of our major findings and 
recommendations and then would be happy to address any others 
of particular interest to you.
    Our most fundamental conclusions deal with the relationship 
between the Department of Energy and the national labs. We find 
that the trusted relationship that is supposed to exist between 
the Federal Government and its national labs is broken and it's 
inhibiting performance. We note that the problems come from 
both sides, from the labs and the Department of Energy.
    We want to be clear that this situation is not uniform 
across all of the labs. In particular, the labs that are 
overseen by the Office of Science generally have much better 
relationships with the Department of Energy than do those in 
the other program offices.
    Many of our recommendations address this fundamental 
problem. We conclude that the roles need to be clarified and 
reinforced, going back to the formal role of the labs as 
federally funded research and development centers for the 
Department of Energy. Under this model, the two parties are 
supposed to operate as trusted partners in a special 
relationship with open communication.
    DOE should be directing and overseeing its programs at a 
policy level, specifying what its programs should achieve, and 
the labs, for their part, should be responsible for determining 
how to carry them out and then executing those plans. In doing 
so, the labs should have more flexibility than they do now to 
implement those programs without needing as many approvals from 
DOE along the way. In return, of course, the labs must operate 
with transparency and be fully accountable for their actions 
and results.
    This flexibility, in our view, should be expanded 
significantly in areas such as the ability to manage budgets 
with fewer approval checkpoints; managing personnel 
compensation and benefits; entering into collaborations with 
private companies, including small businesses, without having 
each agreement individually approved and written into the lab's 
M&O contract with DOE; building office buildings on sites that 
are not nuclear, not high hazard, and not classified; 
conducting site assessments that are relied upon by DOE and 
others to minimize redundant assessments; and sending key 
personnel to professional conferences to maintain DOE's work in 
leading-edge science and for their professional development.
    In the Congressional charge to us, we were also asked to 
examine whether there is too much duplication among the DOE 
labs. We looked into this in detail and have included two 
recommendations in this area. The first regards the NNSA 
laboratories, the nuclear weapons laboratories, where we 
conclude that it is important to the Nation's nuclear security 
that the two design laboratories' capabilities continue to be 
maintained in separate and independent facilities.
    The second recommendation in this area regards the way the 
Department manages through the life cycle of R&D topics. In our 
view, they do a good job at encouraging multiple lines of 
inquiry in the early, discovery stages of new subjects, and 
they're good at using expert panels and strategic reviews to 
manage mature programs. However, at the in-between stages, the 
Department needs to assert its strategic oversight role earlier 
and more forcefully to manage the laboratories as a system in 
order to achieve the most effective and efficient overall 
results for the Nation.
    We want to acknowledge the progress that currently is being 
made in some of these and other areas by the current Secretary 
of Energy and the current Directors of the National 
Laboratories. We encourage them to continue their efforts, and 
we encourage the subcommittee and others in Congress to support 
them and future administrations in this direction.
    Let us turn to our recommendations for how we believe 
Congress can help to improve the performance of the national 
labs. We would like to cite four here in our opening statement. 
First, we conclude that the laboratory-directed research and 
development, LDRD as the Chairman mentioned earlier, is vitally 
important to the labs' ability to carry out their missions 
successfully, and we recommend that Congress restore the cap on 
LDRD funding to the functional level that it was historically 
up until 2006.
    Second, to support strong collaborations between businesses 
and the national labs, Congress may need to clarify that the 
annual operating plans that we recommend should provide 
sufficient authority for the labs to enter into CRADAs and 
other agreements under the Stevenson-Wyler Act and the fast-
track CRADA Program.
    Third, we urge Congress to continue to recognize the 
importance of the role of the national laboratories in building 
and operating user facilities for use by a wide range of 
researchers in universities, other federal agencies, and the 
private sector.
    Fourth, there does seem to be a serious shortfall in 
funding for facilities and infrastructure at the national labs. 
However, the scope and severity of that shortfall are not well 
defined. We recommend that the Congress work closely with 
Department of Energy and with OMB to agree first, upon the size 
and nature of the problem, and then upon a long-term plan to 
resolve it, through a combination of additional funding, policy 
changes, and innovative financing.
    In the interest of time, let us finish by highlighting our 
final recommendation. We found that in the past 4 decades there 
have been over 50 previous commissions, panels, and studies of 
the national labs. It is our view that Congress and the 
administration would be better served by some sort of standing 
body of experienced people who could provide perspective and 
advice on issues relating to the national labs without having 
to create new commissions or studies every time. Such a group 
could potentially be housed at the National Academies or report 
to the President's Council of Advisors on Science and 
Technology or be somewhere else that would provide the 
independence that Congress requires.
    On behalf of our nine commissioners, we want to thank you 
for this opportunity to serve the country on this important 
commission. Dr. Cohon and I would also like to acknowledge the 
great work of our staff at the Science and Technology Policy 
Institute led by Susannah Howieson and Dr. Mark Taylor who is 
with us today. We hope that our work will be helpful and are 
happy to answer questions and to discuss our findings and 
recommendations. Thank you.
    [The prepared statement of Mr. Gauthier and Dr. Cohon 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. Thank you, Mr. Glauthier. I now recognize 
Dr. Littlewood for five minutes.

               TESTIMONY OF DR. PETER LITTLEWOOD,

             DIRECTOR, ARGONNE NATIONAL LABORATORY

    Dr. Littlewood. Thank you very much. Chairman Weber, 
Ranking Member Grayson, Members of the Committee, my own 
Congressman Lipinski, thank you for the opportunity to share my 
thoughts about the findings and recommendations of the 
Commission.
    Let me start by acknowledging the Commission for performing 
a thorough analysis. Commission members are really to be 
commended for the time and effort they spent on examining all 
17 national laboratories' missions, capabilities, operations, 
and challenges. It was a very thorough investigation, and we're 
grateful for that.
    My fellow lab directors and I are pleased with the 
Commission's assessment that the laboratories provide great 
benefit to the country, that we serve not only the DOE mission 
but also support the broader science and technology community 
and help fulfill the security needs of the Nation.
    At the Secretary of Energy's request, we are collectively 
preparing a detailed response for his eyes, and we have 
actually already submitted that to him in the last day or two 
and I'm sure he will want to share that with you in due time. 
But following many discussions that the lab directors and I 
have had together, I believe that my colleagues broadly endorse 
the major recommendations of the report. We commit to 
wholeheartedly engage on our part to work with DOE to make the 
necessary changes to further increase the value of the national 
laboratories.
    In the testimony that follows, I will give you mostly my 
perspective as Argonne Director, but as I say, I think I 
broadly represent the views of my fellow lab directors.
    The recommendations made by the Commission demonstrate 
certainly that they heard our feedback and ideas. We are 
gratified in particular by what I see as a prevailing theme on 
which I would like to focus my remarks today, the theme of 
reintroducing acceptable risk-taking into the lab enterprise, a 
theme which was already touched on by the Chairman in his 
opening remarks.
    Risk can seem like a negative word, and I would agree that 
risk is negative in the realm of safety, but frankly, safety is 
the only area in which I would agree we should never take a 
risk.
    What has developed within the DOE and its laboratories over 
time and in response to various events is increasing attention 
to detail and attempts to reduce uncertainty. This approach 
isn't unexpected and not necessarily all bad, wishing to manage 
risk in a multibillion-dollar institution like DOE is of course 
reasonable. But we've reached a point where we punish failure 
rather than rewarding success, and we're concerned that we've 
traded innovation for regulation.
    So reinvigorating the government-owned, contractor-
operated, or GOCO, model as recommended by the Commission 
essentially helps us hit the reset button. When DOE gives the 
laboratories and their contractors the authority to operate 
with more discretion, we are empowered to take the kind of 
risks that are imperative for scientific discovery and for 
technological innovation. In return, we accept the need for 
transparency and accountability.
    So to chart new frontiers, laboratories must take risks in 
breaking down barriers. We must work across scientific 
disciplines, between fundamental and applied science, between 
research institutions, and between funding agencies. This means 
overlap, sometimes messy.
    A fear of supporting what might be presented as duplicative 
research by different agencies or in different institutions is 
now resulting in challenges in building the pipeline from 
fundamental research to product. The large user facilities of 
the labs support communities of researchers who lie well 
outside DOE's own mission space, but just in medicine that 
intersection has supported in the past such important advances 
as proton radiotherapy, many major drug developments, the human 
genome initiative, and the artificial retina.
    And just as surely as we must risk failing, we must risk 
succeeding and being able to handle the new challenges prompted 
by that success. Success in science and technology inevitably 
leads to positive but sometimes disruptive change.
    Perhaps no other endeavor we undertake at our labs better 
exemplifies the need for accepting risk than the LDRD Program. 
We welcome the Commission's recommendation to restore the cap 
on LDRD to six percent unburdened or equivalent.
    Investment in LDRD has enabled virtually every major 
Argonne initiative including the original Advanced Photon 
Source and its upgrade, the Leadership Computing, the Joint 
Center for Energy Storage Research, four Energy Frontier 
Research Centers, advanced nuclear fuel cycle and reactor 
modeling/simulation processings. LDRD is peer-reviewed and 
extraordinarily competitive.
    So to conclude, I want to reiterate that I largely support 
the Commission's report, as it speaks to the ideas and feedback 
that we have shared. The recommendations, when implemented, 
will help create a working atmosphere to which the labs and I 
believe DOE as well aspire, an environment where we are 
empowered to take risks leading to new scientific discoveries 
in support of critical mission areas for the Nation.
    [The prepared statement of Dr. Littlewood follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Littlewood. The Chair now 
recognizes himself for five minutes for questioning. I guess 
this is to Mr. Glauthier and Dr. Cohon. My first question is 
for both of the co-chairs. Would you all for us please identify 
the most recognizable inefficiencies between the DOE and its 
Science and Energy Labs? And when you do that, please explain 
to us how they affect, how these issues affect research on a 
daily basis? Mr. Glauthier.
    Mr. Glauthier. Sure. Thank you, Mr. Chairman. I think the 
inefficiencies that we noticed the most are the transactional 
oversight, the amount of approvals required, the amount of 
investigations and inspections and the like and that there's a 
lot of time spent on both sides, both at the Department and in 
the laboratories on these processes that is detracting from the 
time spent on the research mission that the laboratories carry 
out.
    Chairman Weber. Dr. Cohon?
    Dr. Cohon. Thank you, Mr. Chairman. I would add just for 
emphasis something that Mr. Glauthier mentioned in our 
testimony and that's this issue of duplication. As he 
explained, duplication is desirable early on as a new field of 
science is emerging. Having multiple laboratories trying out 
different approaches is a good thing. But there comes a point 
where the science becomes clearer and a particular approach 
seems like the--emerges as the preferred one. We need, we all 
need DOE to assert itself more forcefully at that moment so we 
don't waste time and money on multiple approaches.
    So what we've urged in our recommendation is that DOE look 
for that opportunity and intervene more forcefully in that 
process.
    Chairman Weber. Dr. Littlewood, I'm going to come to you, 
but before I do, I want to go back to Mr. Glauthier. You said 
in your opening statement I think you had studied 50 reports? 
Was that right?
    Mr. Glauthier. Yes, that's right. We think we're report 
number 56.
    Chairman Weber. Number 56? Okay. And so have you seen a 
trend through that timeframe of the detail, getting bogged down 
into more and more of exactly what you're talking about?
    Mr. Glauthier. Yes, I think for the last 20 years going 
back to the Galvin Commission in the mid-'90s, that these 
recommendations have been very similar, and there's been a lot 
of concern about the transactional oversight or the amount of 
micromanagement that's gone on.
    Chairman Weber. Dr. Cohon, did you wish to weigh in on 
that?
    Dr. Cohon. No, sir.
    Chairman Weber. Smart man. Dr. Littlewood, I'm going to 
come to you. How do you think these suggestions apply to your 
laboratory?
    Dr. Littlewood. Well, let me make a brief comment about 
transactional oversight. Of course, we're not opposed to 
oversight. Oversight is important. We must demonstrate that 
we're using the taxpayer money well. But just a small comment. 
In 2014 we had four significant findings from audits. All of 
those were found by internal audits. We had 12 internal audits, 
50 assessments and audits that came from outside.
    So we spend a lot of time on trying to make sure that we do 
a good job ourselves. And I will say that the attempt to bring 
in the contractor assurance system which has come in the past 
few years and was commented on in the report I think is a very 
good idea. I will say that there seems to be resistance within 
the system to bringing that to the stage that it was needed.
    So that's one comment. And then to comment about the 
competitive nature of science, I again agree, and I think there 
is some movement in the right direction. So firstly, science is 
a competitive discipline. That's one reason that the United 
States is so good at it. And so the fact that we use 
competition in the early stages to drive discovery is 
necessary. And then I think the ability to bring that together 
at the point where a program can be constructed and driven is 
something that has emerged strongly as a focus of the current 
Secretary in the past few years through ideas such as the Big 
Idea Summits, working together in cross-lab groupings, and it's 
something that the lab directors support. I think that wasn't a 
characteristic of activities 5 or ten years ago.
    Chairman Weber. You said in your comments, Dr. Littlewood, 
that you look forward to the theme of reintroducing acceptable 
risk-taking into the lab enterprise. I think that's what you 
said.
    Dr. Littlewood. Yes.
    Chairman Weber. I'm reading from them.
    Dr. Littlewood. Yes, that's correct.
    Chairman Weber. Okay. Would you elaborate on that? And then 
how do you define success based on what kind of, quote, failure 
and risk-taking? I'll leave that to you.
    Dr. Littlewood. Right. So I think that--well, sometimes 
actually you must risk success. So we're often concerned about 
doing things in slightly uncharted areas because the result of 
success would be a project that was successful perhaps slightly 
outside the DOE mission space. We're very conscious, however, 
of not doing things that could produce failure. Scientific 
failure is something that one should expect occasionally as a 
function exercise. When you fail, you know that you should stop 
doing that and find ways of doing something else.
    I'm concerned that we actually have too many programs which 
can neither succeed, nor can they fail, and therefore they tend 
to stagnate.
    Chairman Weber. Okay. Thank you. I'm reminded about Thomas 
Edison's quest to invent the light bulb on his thousandth try, 
and his staffer said doesn't that just frustrate you? It's a 
thousand failed attempts. He said what are you talking about? 
We now know a thousand ways it won't work. We're closer than 
ever.
    So the Chair now recognizes Mr. Grayson.
    Mr. Grayson. Thank you. I'd like to conduct a brief high-
level, somewhat abstract discussion that is untethered from any 
specific recommendations that you made.
    Why do we have national labs instead of competitive grants 
open to everyone? Mr. Glauthier?
    Mr. Glauthier. I'm sorry, Mr. Grayson. I didn't quite 
understand the question.
    Mr. Grayson. Why do we have a national lab system instead 
of taking the same amount of money and dispersing it through 
DOE to competitive grants open to everybody, presumably the 
best offeror? Why do we do it the way we do it?
    Mr. Glauthier. Well, I think what we've tried to recognize 
is there's a role for the national laboratories in this system 
of research enterprise for the country that is important and 
that you can have a lot of very successful research done in the 
university community, for example, by individual investigators, 
principal investigators, who compete for grants of the type 
you've mentioned. At some stage you need to have large-scale 
programs that are complex interdisciplinary and that extend 
over longer periods of time. And those in particular are places 
where the national laboratories can house those projects. 
There's still a degree of competition among the funding 
programs at the Department and elsewhere.
    One of the things we recommend in our report is there 
should be much better use of peer-review groups so that as 
programs exist and are funded over time, there are--the experts 
in the field are brought together from time to time from the 
university community, industry, and the other labs to review 
the work and to make sure that it is the appropriate work that 
the Federal Government should be supporting and that it should 
be done there at the labs as opposed to done in the nature of 
grants that would be funded elsewhere.
    Mr. Grayson. Dr. Cohon, go ahead.
    Dr. Cohon. Yeah, please. I'd like to add to what TJ has 
said. For me--well, let's take the weapons labs and put them 
aside because they clearly have a reason for being which is 
unique. But to the way you put your question which I like very 
much, I have a very large number of colleagues who would say, 
yes, that's exactly the right question. All the money should 
come to us and not to the labs.
    I think that the reason for being in the first instance, 
the non-weapons labs, are the user facilities. These truly are 
unique. They could not be mounted or maintained by any single 
university that I know of. Universities collaborate together 
but not that well and not that effectively, which they surely 
would have to do to maintain these facilities. So for me that's 
the foundation.
    Having created those facilities and maintaining them, that 
naturally first of all requires scientists and technical people 
to maintain them but also attracts to them world-class 
scientists to use them and to support them.
    So I think that's the most compelling answer to your 
question. But I don't want in any way want to take away from 
what Mr. Glauthier said. I think he's absolutely right. If you 
look at the continuum of R&D from basic research to the 
marketplace, the labs do occupy a niche somewhere between 
universities and companies. They are able to do these large 
long-term collaborative projects that Mr. Glauthier mentioned.
    Mr. Grayson. Dr. Littlewood?
    Dr. Littlewood. Thank you. Yeah, I of course do agree with 
everything we've heard, so I don't want to expand on those. But 
I'll add one further thing where I think the labs could play a 
big role and that's actually by bringing together consortia 
that often involve universities and industry to work on large, 
long-term problems that are necessary to do that. You know, as 
an example, just a local one for Argonne, we run the Joint 
Center for Energy Storage Research which is a $25 million a 
year program with DOE that involves a collaboration between 
five labs, four major universities sort of as partners for 
companies and many other academics. It would be very difficult 
to bring that kind of collaboration together from the vantage 
of being a university academic. And I can tell you that because 
I've been one and tried to do that kind of thing, and it isn't 
so easy from that side.
    So I think that's another key role I suspect for the labs.
    Mr. Grayson. Mr. Glauthier, briefly, since I'm almost out 
of time here, why have contractor-operated facilities instead 
of government-operated facilities directly managed by DOE?
    Mr. Glauthier. The contractor-operated facilities, which 
are the majority, 16 of the 17, have a very good record of 
having been able to attract and retain top-quality scientists 
and to be able to manage that effectively.
    Certainly there are government laboratories at not only DOE 
but elsewhere. Our sense is that the quality of the science has 
been better at these run by M&O contractors, consistently 
better. There's good research at the other labs but not as 
consistently high quality.
    Mr. Grayson. Thanks. I yield back.
    Chairman Weber. Dr. Littlewood, if I understood your 
response to his question about the research being done at the 
labs to the universities, did you say that the universities can 
learn something from you all but you all have never really 
learned anything from the universities?
    Dr. Littlewood. I don't think----
    Chairman Weber. I'm just----
    Dr. Littlewood. --I'd quite put it that way.
    Chairman Weber. Okay. I was just double-checking. The Chair 
now recognizes the two young gentlemen from Illinois. Would you 
like to--would the gentleman from Illinois like to introduce 
them?
    Mr. Hultgren. Glad to have some very important staff with 
me today, my son, Kaden, and my son, Kole. So I'm glad they're 
joining me in Washington, D.C.
    Chairman Weber. Welcome, gentlemen.
    Mr. Hultgren. Thank you. Thanks, Chairman. Thank you, 
gentlemen, for being here. I really do appreciate your work so 
much, and Director Littlewood, I especially want to say good to 
see you, always good to see you. And certainly I love to tell 
the story of what great things are happening in Illinois with 
our great laboratories, Argonne and Fermi and research 
university. So thank you.
    Dr. Cohon and Mr. Glauthier, we'd also like to thank you 
for all your work your Commission did after the cromnibus. I 
know you've both been very available to my staff with the 
National Laboratories Caucus as well in both the House and the 
Senate. I certainly share your goal of finally implementing 
some of the changes which we seem to be rehashing every few 
years.
    A little over two years ago, this subcommittee held a 
hearing looking at the ITAF study on the labs done by Heritage 
and the Center for American Progress, certainly very bipartisan 
groups. Last year, Brookings put together a good study looking 
at ways to better utilize the labs' tech transfer capabilities 
to spur local and regional economic development.
    So I see your concern and agree with it about the number of 
studies which have been showing many of the same things over 
and over again. I also want to see that some of these things 
finally get acted upon.
    In the last two Congresses the House has passed my 
legislation to free up the labs to do the work without 
unnecessary burdensome oversight. Some of the most important 
provisions in my bill freed up the ability of the labs to be 
able to enter into ACT agreements, gave signature authority for 
tech transfer agreements under $1 million to lab directors, and 
allowed for some early stage proof-of-concept work to be done 
with tech transfer funds.
    In the Statement of Administration Policy on this year's 
COMPETES' reauthorization, the President's Senior Advisor 
characterized these sections as reducing oversight in a way 
that would increase the exposure of the federal government to 
risk and liability while also conflicting with the execution of 
the DOE mission.
    Dr. Cohon and Mr. Glauthier, I wondered, this seems to me 
to be the lack of trust you mentioned throughout your report. I 
wonder if you could explain to the Committee how the M&O 
contracts do and perhaps should work? It also seems to me that 
a lab would be hesitant to stray from the DOE mission risking 
the loss of their contract which comes under review every few 
years.
    Mr. Glauthier. Yes, Congressman, happy to respond to this. 
And we think that your legislation actually is directed in the 
right way, the principal elements of it, to make it easier for 
partnerships between the laboratories and the private sector or 
others, and our recommendations are very consistent with that.
    I think the key element is that it's not just letting the 
labs free to go off and do all those things. But our 
recommendation is that there ought to be an annual operating 
plan at the beginning of each year where the government and the 
laboratory agree on the scope and scale of the things that 
laboratory's going to do for the coming year. And that would 
include the amount of cooperative work that they tend to do 
with industry, and they're going to describe the nature of that 
work.
    Let's say a laboratory like Argonne is going to do $50 
million worth of cooperative work with various industries, a 
lot of it consistent with what they've done in previous years. 
And once they've had that discussion and they've agreed with 
the government about that, then the laboratory ought to be free 
to carry it out. And as long as the agreements with companies 
would be consistent with that plan and within that scope, they 
ought to be able to go ahead and do it exactly as you described 
in your legislation.
    But there doesn't seem to be that predicate, that 
description, discussion up front, an understanding of what the 
areas are in which the laboratories are going to do this sort 
of work. But the key is the laboratories should be responsible. 
It does have to be transparent as it goes forward. It has to 
report what it's doing. It has to share that information with 
the Department and be accountable for the way it's done.
    Mr. Hultgren. Dr. Cohon or Director Littlewood, do you have 
any thoughts on that?
    Dr. Cohon. I would only add to echo what we say in our 
report that the DOE should be identifying what needs to be done 
in collaboration with the laboratories and then leave it to the 
labs to figure out how to do it, which is again, very 
consistent with your legislation.
    Mr. Hultgren. Thanks. Dr. Littlewood?
    Dr. Littlewood. Yeah. I mean, let me actually broadly say 
that from Argonne's perspective, our interactions with the 
Office of Science are quite positive often in many regards 
associated with this. But I think I'd like very much to build 
on the number of challenges you address, somehow getting rid of 
the sand and grit out of the works, in particular, being able 
to deal with industry. Sometimes we find it easier to deal with 
big companies because they have about the same number of 
lawyers as we do. When we want to be fast and nimble and help 
small companies take things to market, you know, we need more 
rapid methods of doing this. And I think many of the labs are 
looking for experiments to do this. They're being supportive 
through DOE by for example the invention of the Office of Tech 
Transfer. But I think that they can be further engaged by the 
kind of legislation you're pushing.
    Mr. Hultgren. Thanks. Five minutes goes by way too fast. I 
have a couple other questions. If it would be all right if we 
could follow up in writing with you all, that would be great. 
But with that, Chairman, I yield back the balance of my time I 
don't have.
    Chairman Weber. I thank the gentleman from Illinois. I 
recognize the other gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. My first question is 
for Director Littlewood. As you know, I'm very interested in 
ways that can help the national labs bring new energy 
technologies to market faster, in general, the whole idea of 
improving technology transfer. I was pleased to see the 
recommendation 25 in the Commission's report mentioned the need 
to continue to look for ways to improve the technology transfer 
process.
    I know that Argonne puts a lot of emphasis on the 
commercialization portion of their mission. So I want to ask, 
does Argonne have challenges in taking technologies to market 
that we might be able to alleviate or lessen with Congressional 
action? Are there any recommendations you would make to us?
    Dr. Littlewood. Thank you very much, Congressman. As you 
remarked, it's really an important part of that business to try 
and take technologies to market.
    What I'd like to see in fact is an expansion of what I 
would call the user facility concept in this space. So we're 
used at Argonne to having 5,000 users who come from all to use 
our advanced photon source, but we also have large and embedded 
facilities of the labs that can be really important in taking 
technology to market, and we'd like to find ways of making them 
more accessible.
    So sometimes those facilities have been funded by DOE. 
Sometimes they've been funded by different pieces of DOE, and 
we found for example that we've kind of got an unwieldy 
internal portfolio of activities and sometimes difficulty 
bringing those together in kind of one-stop shopping for any 
customer who is interested in our business. And DOE is helpful 
about this, but sometimes DOE looks over its own shoulder at 
duplication.
    So I'll give you one small example. We have a project that 
I'm very proud of which is to develop better combustion 
chemistry for engines, and it goes all of the way from 
fundamental chemistry all the way up to design of engines. That 
program is funded by four different pieces of DOE. Because of 
concern about duplicative research and duplicative oversight, 
those pieces of DOE look at the boundary between the areas 
they're funding and are very concerned about overlaps. If you 
want to go from tech transfer, you want to take something from 
fundamental science all the way through to the market, you must 
engage in overlaps.
    So I think Congress could help by putting in language which 
is more sophisticated about duplicative research, overlaps that 
would in fact encourage overlaps and enable things to get to 
market more quickly.
    Mr. Lipinski. Thank you. I wanted to use the rest of my 
time to move onto sort of reiterating and getting more from all 
of you about the duplication of research issue that Mr. 
Glauthier had mentioned. I know that the report also states 
that most duplication that occurs within the R&D programs of 
the labs is intentional, managed, and beneficial to the Nation. 
And I want to make sure that everyone here understands that 
this is not government waste that we're talking about here.
    Can you explain a little better, Mr. Glauthier, Dr. Cohon, 
why well-coordinated independent replication of research 
activities is valuable to the scientific process in national 
labs? And if there's anything that Dr. Littlewood would want to 
throw in there--I just wanted to make sure that we all 
understand what this is really about.
    Mr. Glauthier. Sure. Let me start, Congressman. The 
duplication if you will at the NNSA labs, the weapons labs, is 
quite different than that of the others. So let me start with 
those. And there we did state very clearly that the duplication 
or the fact that we have design capabilities of nuclear weapons 
programs for the country--you have two different labs--is very 
important to the country. We have seen the benefits of the two 
different groups of weapons designers being able to validate 
their designs or to be able to test those against each other. 
And that's a specialized case where it's a very important one 
for us.
    The other types of duplication if you will are really a 
misnomer. For the most part, the work that's being done is very 
similar but it's different. The accelerators is one of the 
examples, light sources or other forms of accelerators that the 
government has funded and operates at different science 
laboratories around the country. Each one is a light source all 
right, but they're different. There are different degrees of X-
rays, different speeds and hardness, different kinds of 
applications. And so researchers end up using those for 
different types of research. And our group was quite satisfied 
as we went through this that the processes that the Office of 
Science uses in this case to bring together experts to really 
examine that and be sure as they go over the process of 
building new facilities or maintaining these is one that is 
serving the right needs of the country and not duplicating 
science.
    Mr. Lipinski. Dr. Cohon?
    Dr. Cohon. I'd like to support and join the comments that 
Dr. Littlewood made before about the nature of science and its 
competitive nature. He's absolutely right about that. One of 
the major reasons that the United States is such a leader in 
research is because of the competitive nature of our research 
enterprise. So allowing for and managing that competition among 
the laboratories is actually a very good thing for the Nation. 
And the key is the management part of it and understanding at 
what point the competition should end and we should move on.
    And I also want to agree with Dr. Littlewood's comment 
before that this administration of the Department has done 
quite well in this regard, and there's been very good progress. 
So it's not a waste. In fact, it's a very key attribute of the 
national lab system.
    Mr. Lipinski. Thank you. Thank you, Mr. Chairman, for 
letting us go a little bit further. But I think that was a good 
explanation we needed to hear. Thank you. Yield back.
    Chairman Weber. Well, I'm going to take you a little 
further if the gentleman would--little help over here. Dr. 
Littlewood, you had six patents, is that correct?
    Dr. Littlewood. Uh-huh.
    Chairman Weber. Okay. And so when you went through that 
process of--I guess that was research and development of 
something. You would say that there's steps, identifiable 
steps, one, two, three, four, I don't know. Maybe not like 
Edison with over a thousand but a certain number of steps. And 
I think what I hear you all saying is if you've got two 
processes going on at the same time, maybe somebody does a 
better step three than your process has. And so in that regard, 
the taxpayers come out because we actually get the best bang 
for our buck. The entire process becomes better. Does that make 
sense?
    Dr. Littlewood. I agree entirely. That's very well put. So 
the process of scientific invention and tech to market is many 
things.
    Chairman Weber. Sure.
    Dr. Littlewood. Lots have to be joined up.
    Chairman Weber. All right.
    Dr. Littlewood. And there you have it exactly right. They 
must----
    Chairman Weber. I appreciate it, and thank you all for your 
indulgence. I recognize the gentleman from Georgia.
    Mr. Loudermilk. Thank you, Mr. Chairman. This is a very 
interesting topic, especially to me. The Chairman took--we took 
a CODEL not too long ago to the Savannah River Lab which my 
father actually worked at right after World War II. The first 
time I had visited there. But I'm also on the Homeland Security 
Committee. So the research and development and everything that 
goes on within the Department of Energy for our national 
security is of exceptional interest. But what really interested 
me is we share a lot in common after reading recommendation 
number two. We all agree that overregulation is not healthy for 
competition and for development, for innovation. And I think 
you identified that having a trusting relationship that is free 
from expensive, burdensome administrative oversight from DOE 
would be very helpful. And I appreciate that.
    Obviously oversight of sensitive national security research 
is very important. We need to have a level of oversight. We 
need to make sure that we control what we're doing, that the 
intellectual properties, that it stays within the defense 
community.
    But the domestic, non-defense related research and 
development, I think we agree--maybe we can reduce the 
regulatory burden on these. So Mr. Glauthier, and I'd also like 
to hear from Mr. Cohon as well. When considering legislative 
improvements for the national labs and the amount of DOE 
oversight, should Congress make a clear distinction between 
national security and domestic research?
    Mr. Glauthier. That's a very interesting question. I think 
both of them need the effective oversight that makes sure that 
the work is being done in a way that's consistent with the 
policies of the Nation. Frankly, we found that the planning and 
oversight processes in the weapons program were not as 
effective, are not as effective, as those in the Office of 
Science programs for example. And we recommended that some of 
the procedures being used in the Office of Science ought to be 
adapted and used in the other areas as well.
    The peer review processes in particular, sometimes the 
weapons programs I think use the excuse that their -- that the 
classified activities restrict the number of people who can 
participate in peer reviewed and the like. But our feeling is 
that there are ways to make those peer review processes more 
effective and use the discipline that comes from that to make 
the whole program more successful, more effective, and to 
manage projects in a way that brings them in on schedule, on 
budget and the like at the performance levels of her plan.
    Mr. Loudermilk. Dr. Cohon?
    Dr. Cohon. I have nothing to add to that.
    Mr. Loudermilk. Okay.
    Dr. Cohon. Thank you, Mr. Loudermilk.
    Mr. Loudermilk. One last question on this for you two--what 
can Congress do to facilitate this, reduce the red tape?
    Mr. Glauthier. That's a great question. The Department of 
Energy actually has the authority to do most of the things that 
we recommend if they are willing to do it. So one of the 
aspects is that the Congress can be supportive, can indicate to 
the Department that you really want them to restore this kind 
of working relationship. Another key element I think goes back 
to what Dr. Littlewood talked about which is risk acceptance. A 
lot of the rules that the Department have been put in place 
because something went wrong, and people put a new rule in 
place and said, well, we're never going to have that problem 
again. Okay, but you've got a lot of other problems. Over time 
it becomes a very cumbersome working environment.
    I think we have to recognize that things will go wrong. If 
you have 55,000 people working at the national labs, there will 
be some mistakes. We have to make sure we manage the risk side 
so that really serious mistakes don't happen but that smaller 
errors can. An example is property management. We've got rules 
for tracking laptop computers that mean they have to inventory 
those and find every one of those at every lab every year. And 
there's a point of diminishing returns. Some of those laptop 
computers are so old they're not worth tracking down. You ought 
to decide that at some point you draw the line and say, okay, 
we've gotten 98 percent of them. There are just rules of that 
sort. I think Congress can be supportive of a risk acceptance, 
a risk management approach to the way the Department is run.
    Mr. Loudermilk. Okay. Dr. Littlewood, would you like to add 
anything?
    Dr. Littlewood. I think I'd just echo that. I think we 
don't have a risk-based management approach of the labs, and 
that's something that we would really benefit from.
    Chairman Weber. The gentleman yields back. The gentleman 
from California is recognized, Mr. Swalwell.
    Mr. Swalwell. Thank you, Chair. Thank you for those who 
participated in the study, and also I want to thank Mr. 
Littlewood for coming here and representing a national 
laboratory as well. I am proud to represent Lawrence Livermore 
National Laboratory as well as Sandia National Laboratory, 
approximately 8,000 lab employees in our district. A good chunk 
of them are scientists. And so when we think about the lab 
community, 17 different laboratories, 55,000 people, Dr. 
Littlewood, could you just very briefly describe to me 
approximately how many of them are scientists, people with 
advanced degrees or even a bachelor of science degree or 
beyond?
    Dr. Littlewood. I'm not sure I could say that for all of 
the labs but I think probably reflecting your labs, too. I 
mean, at Argonne, we have 3,500 employees, 1,500 of them have 
advanced degrees. I think that's probably a common proportion 
across the labs. And many of those of course who don't have 
advanced degrees will have bachelor's degrees and working this.
    Mr. Swalwell. And Dr. Littlewood, to get an advanced degree 
today or even 10 or 15 years ago, you agree it's quite an 
investment in one's future?
    Dr. Littlewood. Yeah, I agree.
    Mr. Swalwell. And one challenge that I have come across 
talking to our lab employees at home is that because the labs 
are operated as government-owned, contractor-operated, these 
scientists who have made six-digit investments in their future 
with the student load debt that they've taken on do not qualify 
for the public student loan forgiveness program. Are you aware 
of that?
    Dr. Littlewood. I was aware of that, yes.
    Mr. Swalwell. And so my experience--and maybe you could 
tell me if it's different at Argonne or other national 
laboratories--is that these scientists are, you know, for all 
intents and purposes, they are committed to serving our 
government. They are career scientists. They're likely not 
going to leave, but they're ineligible for a program that other 
federal employees are eligible for.
    Dr. Littlewood. That's correct. So you're quite right to 
say that, you know, we have truly dedicated staff. We of course 
have lots of very close collaborations with Livermore and 
Sandia. So we know them very well. And these are staff who are 
dedicated to public service. They're not officially federal 
employees.
    Mr. Swalwell. Do you think that it would help you recruit, 
attract, and retain these bright scientists if we were able to 
make them eligible for the public student loan forgiveness 
program? And I'd open that up also to the other participants as 
well.
    Dr. Littlewood. I mean, I've not thought in detail about 
it, but it seems very clear. I will say that the labs have some 
concern about recruitment over the years, particularly my 
colleagues who run weapons labs. It's very important for them 
to be able to recruit actually very substantial numbers of 
scientists and in particular, those who are able to hold a 
clearance. And so we're actually collectively very concerned 
about pipeline issues and anything that we can do to bring 
people into this area of public service is something I would 
support.
    Mr. Swalwell. Great. Thank you. And maybe the other 
witnesses who studied in our national laboratories, is this an 
issue that we should look at opening up and making lab 
employees who are not today eligible, making them eligible 
for--in the program, just so you know, if you make 120 payments 
serving the public, maybe as a teacher, maybe as a prosecutor, 
maybe as a public defender, 120 payments, the balance of your 
student loans is forgiven. But lab employees don't qualify.
    Mr. Glauthier. Congressman, I think it's a very interesting 
proposal and not one that we studied in our work. But we did 
look at the issue about attracting and retaining, you know, 
really qualified people for these laboratories and particularly 
the weapons labs, such as Livermore. And it is a real 
challenge. So there are several of our recommendations that 
speak to that. One is the increase or restoration of the LDRD 
level of funding----
    Mr. Swalwell. That's right.
    Mr. Glauthier. --which is very important at the weapons 
labs. As Dr. Cohon has said from his background in 
universities, our universities today do not train weapons 
designers. That's done at three facilities in the country, and 
people need to be brought in who are very bright and trained in 
disciplines that are relevant and then given the opportunity to 
work in these areas. To bring them in is best done through 
funding like the LDRD programs.
    We also address our recommendations on facilities and 
infrastructure to these areas as well. The run-down state of 
some of the facilities has been an impediment to recruiting and 
retaining really top-quality people, and those labs that have 
been able to build new facilities, new office buildings, new 
research facilities have seen the resulting benefits in their 
recruiting processes, too. I think your proposal is an element 
that would fit in very constructively to that program.
    Mr. Swalwell. Thank you, and I hope my colleagues on the 
other side would entertain that. It's something our offices 
have been working on with other member offices with 
laboratories. But I do share a belief that, you know, these 
scientists who work on national security programs shouldn't be 
treated any differently when the eligibility is considered for 
student loan forgiveness once they serve for ten years. So I 
yield back.
    Chairman Weber. The gentleman yields back. The other 
gentleman from California is recognized for five minutes.
    Mr. Rohrabacher. Thank you very much. Let me just note 
there are contractors not just in the labs. There are 
contractors throughout the federal government, many of them 
risking their lives, having operations overseas with our 
military and our intelligence agencies. And that's--whether or 
not we want to do it for contractors what we do for a federal 
employee is something that is also designated by ballot--excuse 
me, by budget issues which if we indeed say all federal 
employees are going to--all federal contractors will get every 
right as a federal employee, yes, it'll cost the federal 
government more money and thus there may be less money for 
research projects in their labs because we have a limited 
amount of money we're dealing with here. But maybe that is the 
best use of the money, getting the best contractors you can to 
work for you might be worth it. But we----
    Mr. Swalwell. Would the gentleman yield for just 15 
seconds?
    Mr. Rohrabacher. Sure. Sure, go right ahead.
    Mr. Swalwell. And thank you. And I certainly agree with you 
because a lot of the contractors work for a year, two years at 
a time, and this federal program which was already funded 
requires ten years of service.
    Mr. Rohrabacher. Okay.
    Mr. Swalwell. Thank you, and I yield back.
    Mr. Rohrabacher. All right. Well, we'll be taking a look at 
it I'm sure. I have been looking at this. We have, what, 17 
national labs, and their budget is $14.3 billion of which $11.7 
billion comes from the Department of Energy. And that 
represents--that $11 billion represents 82 percent of the 
funding for the national labs. Yet of the national labs, 
there's a great discrepancy in terms of how much of their 
project is actually being financed that way. For example, Fermi 
National Accelerator Lab receives 100 percent of its funding 
from the Department of Energy but the Savannah River National 
Lab only receives less than seven percent of its total budget. 
Now, where's that other money coming from? If it's not coming 
from DOE, where's it coming from?
    Mr. Glauthier. Congressman, thank you. The laboratories at 
Savannah River is an unusual case because so much of that site 
is actually the environmental management work. And so I'd point 
to some of the other labs such as the Pacific Northwest Lab or 
Sandia Lab where there's a large percentage, 30 percent or more 
of the total funding of the laboratory comes from other 
sources. Those tend to be the Department of Homeland Security, 
Department of Defense, the intelligence community.
    Mr. Rohrabacher. How much of it is private sector?
    Mr. Glauthier. A very small amount actually comes from the 
private sector. I don't have the percentage at hand, but I 
would say it's certainly less than five percent. It's probably 
1 or 2 percent.
    Mr. Rohrabacher. Okay. So if the private sector is involved 
with using these labs, they--do they then pay? They're paying 
rent for their--they're paying for the use of the facility, is 
that it?
    Mr. Glauthier. For work that they do that is proprietary, 
that is, such as the pharmaceutical companies who test all of 
their new drugs in the light sources of the Department, they 
pay full cost recovery. So when they're using those, they pay 
the total cost of the resources that they use. If they're 
engaged in partnerships where they're doing early stage basic 
research that's going to be published and they're not going to 
have any patent rights to it or anything, then they don't have 
to pay for that.
    Mr. Rohrabacher. Well, what if they do have it or are 
private companies now receiving patents for the work that they 
did in the national labs?
    Mr. Glauthier. Yes, and Dr. Littlewood might be in a 
position to actually give some examples of that.
    Dr. Littlewood. Well, yeah. So often what happens of course 
is that there is research which is done in the national labs 
that is licensed to private companies.
    Mr. Rohrabacher. Right. And I -- but does the federal 
government get an ownership share or a profit share in 
something that we have been provided for these private 
companies?
    Dr. Littlewood. Well, the -- we're regulated in this really 
by the Bayh-Dole Act.
    Mr. Rohrabacher. Say that again?
    Dr. Littlewood. Bayh-Dole Act. So going back to 1980, the 
ability actually to take federally funded research and license 
it to private companies were effectively regulated in the same 
way that a university would be over that license.
    And then there are other examples where we do what one 
might call--well, what are explicitly cooperative Research and 
Development Agreements, where we agree in advance to do 
collaborative work with industry. With an agreement in advance 
about what will happen to the IP portfolio?
    Mr. Rohrabacher. Yeah. Let me just note that I think it's a 
good thing that we have companies and other government agencies 
utilizing this asset. That's why we've invested in it and I 
think we do, if it's possible, we're always looking for some 
way because we're operating on deficit right now. But by and 
large, the idea of having our companies in the United States 
and other government agencies have that capabilities they 
wouldn't have otherwise is a good thing. And that's what it's 
all about. So thank you very much.
    Chairman Weber. The gentleman yields back. I now recognize 
my good friend that serviced on the Texas Legislature with me 
until we got demoted. Mr. Veasey?
    Mr. Veasey. Thank you, Mr. Chairman. I appreciate that. And 
I had a question for Mr. Glauthier and Dr. Cohon about the 
report about the National Laboratories and finding new ways to 
be able to work with universities and wanted to ask, were you 
able to particularly identify any notable obstacles that 
prevented labs from being able to work with universities?
    Dr. Cohon. No, Congressman. We think that the relationships 
now among the laboratories in many universities are really very 
good and no major obstacles for further collaboration. We 
underline it in our report because we think it's so critical, 
both for the laboratories and the universities. But there are 
no major barriers to that. We want to of course see it stay 
that way.
    Mr. Veasey. Are there any things that you think Congress 
can do to even further encourage those relationships?
    Dr. Cohon. Probably hearings like this and asking questions 
like that is a good way to do it, sending the message that it's 
a desirable thing to see those kinds of collaborations go 
forward. Dr. Littlewood has a lot of experience with this, and 
I'm guessing he's going to agree that there are no obstacles to 
this. Let's not create any.
    Dr. Littlewood. Indeed. So I would comment on that. So, you 
know, as an examples and Argonne isn't very different from any 
of the other science labs. We actually have 200 joint 
appointments with local universities. I've talked about joint 
research programs that we go together.
    But I will say that for us, the ability to work with 
universities in a regional context is beginning to be even more 
important because universities engage in their region. They 
engage with business, and they begin to form the ecosystems 
actually that can brings the lab in to be more effective in 
tech transfer. So in Chicago, University of Chicago has the 
Chicago information exchange, innovation exchange, which 
Argonne is part of because we have this relationship with the 
university. That connects us to a much broader ecosystem that 
would be difficult for a lab that's got a fence around it. So 
actually, the universities often can be a ways out for us to 
work with the broader community. What I will say, however, is 
that indeed I think we try very hard to have good relationships 
with their university colleagues. I think there are a few 
barriers at the moment. I hope we don't create any.
    Dr. Cohon. Could I just follow on that? I'm really glad 
that Dr. Littlewood brought that up, this idea of collaborating 
with universities regionally for regional economic development. 
Argonne stands out among the 17 labs in being both open and 
proactive in that regard. We, our Commission in our report, 
signal--not Argonne now but the opportunity for that kind of 
engagement in regional economic development is a potential 
that's not being realized by most of the labs. And doing it 
collaboratively with regional universities is a very good idea. 
So seeing much more of that I think would be a very good thing.
    Mr. Glauthier. May I add one more thought?
    Mr. Veasey. Yes, please.
    Mr. Glauthier. And that is that the role of the DOE labs in 
building and operating user facilities is very important for 
this collaboration of the university community, and sometimes 
it's not understood that the Department of Energy is operating 
facilities that are used by grantees from the National 
Institutes of Health or from NSF or others and that role of the 
laboratories is a very important one. And so Congress could 
continue to really embrace that and be sure that those 
facilities are for widespread use by researchers in all fields.
    Mr. Veasey. Thank you very much for your answers. Mr. 
Chairman, I yield back the balance of my time.
    Chairman Weber. All right. Mr. Foster, you are up for five 
minutes. Welcome.
    Mr. Foster. Thank you very much, and I would like to thank 
Chairman Weber and Ranking Member Grayson for allowing me to 
sit in on this subcommittee hearing. While I don't sit on the 
committee, I spent 23 years of my life as an employee of Fermi 
National Accelerator Lab and now I'm one of two members that 
represent Argonne National Lab.
    And I have to start out by saying that I resonate very 
strongly with the comments you've made on the risks of 
excessive risk aversion, that this is something that we--those 
of you who've lived through the Tiger Teams. You remember that? 
Yes? Okay. Yes. You're bowing your heads appropriately. Let the 
record show that they nodded with a wry smile.
    You know, these sort of things represent an overreaction 
that typically----
    Chairman Weber. So ordered, without objection. But can you 
spell wry for it?
    Mr. Foster. W-r-y.
    Chairman Weber. All right. I thank the gentleman.
    Mr. Foster. Anyway, you know, very often this starts when 
something bad does happen, you know, there's an injury or 
something like this or a security breach. And so there's a 
newspaper story, frankly an overreaction in Congress, and this 
gets amplified down the command chain at every step at every 
level in the bureaucracy, someone wants to make sure that 
everyone reporting to them absolutely isn't the one that trips 
over whatever rules are established. As a result, by the time 
it gets down to the working level, sometimes these have morphed 
into really silly things like tracking down 20-year-old 
computers. And I have strong memories as I was checking out a 
Fermi lab, having to track down computers I had not seen in 20 
years that were just sitting around collecting dust somewhere. 
And this is because probably at some point, someone--you know, 
there are bad apples everywhere-someone stole some computers, 
and there was a story about it.
    And so I think that, when I'm trying to figure out what the 
rules that you should be held to on this, I think it's useful 
to segment the truly unique things we do, the part of your work 
that's, you know, nuclear reactors or weapons, stuff like this, 
where there are really unique risks. From the probably 90 
percent of what you do that is just ordinary things that can be 
compared to industry and if the standards you were held to was 
really industry best practices, you know, you have to deal with 
roadway safety on your laboratories, okay, as do big industrial 
plants. And I think that when you compare your safety record 
for roads, comparing it to what industry does would be a much 
more reasonable standard. And part of that is that when 
something happens, Congress has to have a more mature reaction. 
You know, we are seeing in today's politics Members of Congress 
standing up and saying I want to guarantee that there is a zero 
percent probability that anyone we let into this country from 
certain other countries will turn out to be a terrorist. And 
when you hold people to unreasonable standards, unachievable 
standards, then you end up with bad results.
    Anyway, so I was wondering if you have a reaction to using 
industry as a benchmark at least for the part of your work that 
is comparable to what's done in industry? Any reactions as to--
--
    Dr. Littlewood. Well, actually, let me comment. In fact, we 
do that particularly over safety. So you know, as part of our 
oversight process, I have a board. You know, my board of course 
has a safety committee. My board is actually a rather 
distinguished board that has captains of industry, former 
Senators, people who want to understand these things very well. 
And we use that board and their oversight role to manage the 
lab in ways that we think are appropriate.
    As I think you're pointing out, many of the rules and 
regulations that we face are things that we have to do and I 
don't believe help the operation of the lab.
    Mr. Foster. Right, and so do you have an observation about 
what altitude in the command chain most of these unhelpful 
regulations are generated at?
    Dr. Littlewood. I think the regulations may have been 
dealt, delivered initially at high altitude but without 
understanding the consequences. They then become imbedded in 
the system at low altitudes and are impossible to remove. And 
it may well be that as you say, some of these things we could 
fix ourselves if we actually had the courage to just go in 
there and take this out. And so I'll comment that the Secretary 
himself has formed a task force to look at what he calls an 
evolutionary model to try and dig out this, you know, cobwebby 
stuff which has just collected over the years.
    Mr. Glauthier. If I might, one of the things that previous 
commissions have done often is to recommend that the Department 
should review all its directives and orders and you know, 
eliminate the ones that aren't needed. We took a different 
approach. We said there are many situations where you shouldn't 
even have to use Department of Energy rules or anything, that 
in settings where you're trying to build an office building, 
for example. It's non-nuclear, non-high hazard, it's not in a 
classified area. Then you ought to be able to have the option, 
the laboratory have the option of using the standards that are 
in place in the community, in the state in which you operate. 
And we cite some examples where in California, for example, 
there are some electrical wiring standards for wiring an office 
building that Stanford has been recently doing. The Department 
of Energy has these three that we've cited that were issued in 
2006. Those are the ones that contractors are supposed to use 
in the real world. In the rest of the world those haven't been 
updated three times since then so that the IBEW, electricians 
who are out there working on these sites have standards that 
are in fact being used throughout Silicon Valley, and they 
should use those standards for just a regular building and that 
sort. We think that's one of the elements. Just give the 
laboratories that option to go with the standards that are the 
appropriate ones in the area.
    Mr. Foster. Thank you. I yield back.
    Chairman Weber. Gentleman yields back. I thank the 
witnesses for your valuable testimony and the members for their 
questions. The record will remain open for two weeks for 
additional comments and written questions from members, 
including those who got wry smiles.
    Mr. Foster. Mr. Chairman?
    Chairman Weber. Yes.
    Mr. Foster. Would it be possible for me to have another 
couple minutes of questioning for--because this is so dear to 
my heart?
    Chairman Weber. Yes, I'm good with that.
    Mr. Foster. All right. Thank you. I very much appreciate 
it. You mentioned one of the Commission's recommendations is 
restoring LDRD to six percent, and this is something--I was 
wondering if you--you know, what is magic about six percent. Do 
you think as a general matter of principle that if the fraction 
of money--I'm not talking about increasing the pot--but if the 
fraction of money was delivered as LDRD was increases or 
decreased, whether it would result in an increase in the, you 
know, innovation and the efficiency of laboratories?
    Mr. Glauthier. Congressman, if we could, the level of six 
percent that was without overhead burden is what the 
laboratories--it's a ceiling. So not all laboratories would do 
that, and of course, many of the laboratories have decided to 
use lower rates. But the weapons labs especially find that it's 
so important, particularly in attracting and retaining their 
employees, that they do need to have substantial levels. That 
six percent is the level that they were using at points where 
it was unconstrained, where the government authorized LDRD but 
didn't have a cap on it. And so our recommendation is to return 
to the levels that they had found as effective levels at that 
time.
    Mr. Foster. Is the decrease that we've seen in LDRD just a 
reflection of the fact the budgets have been squeezed and that 
that's one of the places you can--you know, if there's some 
fat--not fat to trim but you know, some optional things.
    Mr. Glauthier. It's been a Congressional direction. The 
change in 2006 was to add a requirement to put overhead rates 
on that, and they increased the cap from 6 to eight percent, 
but the overhead rate effectively made it less than it had been 
before. And then that's been restricted further in the last 
couple of years.
    Mr. Foster. Okay. And then finally, do you think it would 
be useful to have an explicit follow-up to this report, to have 
actually action items and have you come back because there's a 
long history of really very high-quality reports that have 
gathered dust. And what's needed frankly to my mind is an 
explicit follow-up, that six months or a year from now you come 
back and say here are our action items and here, what we've 
done in response to them.
    Mr. Glauthier. Yes, but our recommendation is that there 
would be a value to having a standing body of some sort set up 
so that it would not just be to look at the regulations of this 
Commission but to be able to be a resource to the Congress on 
the implementation of these and the implementation of the 
Augustine-Mies Commission a year ago and the recommendations of 
another National Academy Report that Dick Meserve chaired and 
whatnot. And as new issues arise, as a problem does come up at 
some lab and the Congress wants to get the perspective of some 
group of experienced people outside an independent view, that 
that kind of a body could be a group you'd turn to rather than 
having to create a new commission.
    So we would encourage you to think broadly about how you 
could accomplish that, how you can get that kind of oversight 
and support but definitely on these recommendations and on the 
whole broader category.
    Mr. Foster. Thank you and appreciate it and yield back.
    Chairman Weber. Before the gentleman yields back, Bill, 
tell us again. You worked in the labs how long?
    Mr. Foster. Twenty-three years at Fermi National 
Accelerator Lab with collaborators at many national 
laboratories.
    Chairman Weber. In what capacity?
    Mr. Foster. I was an accelerator designer and builder. I 
designed and built large-particle accelerator, accelerator 
components and detectors. I'm probably the only Member of 
Congress that's designed and built a 100,000 ampere 
superconducting power transmission line. I don't want to 
overreach----
    Chairman Weber. Which is why I'm saying we're glad to have 
you here today. Welcome. Thank you. And I do want to mention 
that we've got a bill that we should be dropping tomorrow, Dr. 
Littlewood, called the Nuclear Energy Innovation Capabilities 
Act. We actually worked with Mark Peters on this bill, and it's 
going to be doing three things. Of course it's on advanced 
reactors, modeling, and simulation. Number one, we're wanting 
to focus on a fast research reactor. Then we're also wanting to 
allow private reactor prototypes at DOE sites. So I thought 
you'd find that interesting. Yes, sir.
    Dr. Littlewood. Yeah, I actually look forward to that 
because we're very proud to have Mark Peters as an alumnus of 
Argonne go on to be Director of Idaho National Lab. So that's 
one of the things that we like to do for the Nation.
    I think that by the way, particularly in the reactor area, 
I'd like to comment that Idaho, Argonne, and Oak Ridge are very 
much in synchrony on wanting to push forward the next 
generation of nuclear reactors. I'd like the United States to 
have some options in 2050.
    Chairman Weber. Absolutely, and we would, too. And Aaron 
corrected me here. He actually testified on the bill is what I 
meant. And we do have bipartisan--Eddie Bernice Johnson is co-
authoring the bill with us. And so if my good friends here on 
the right will co-sign on with that bill while we have a good 
possibility we're going to get it through.
    I do thank the witnesses for your valuable testimony and 
members for their questions. Again, Bill, we appreciate you 
being here. The record will remain open for two weeks for 
additional comments and written questions from the members. The 
hearing is adjourned.
    [Whereupon, at 3:29 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
